WebBank
Oportun® Visa® Credit Card Account
Disclosure and Pricing
Information
Interest Rates and Interest Charges
Annual Percentage
From 24.90% to 29.90%
Rate (APR) for
Your APR will vary with the market based on
Purchases and Cash the Prime Rate.*
Advances
Your due date is at least 25 days after the close of
each Billing Cycle. We will not charge you interest
Paying Interest
on Purchases if you pay your entire balance by the
due date each month. We will begin charging
interest on Cash Advances on the transaction date.
Minimum Interest
Charge

If you are charged interest, the charge will be no
less than $1.00.

For Credit Card Tips
from the Consumer
Financial Protection
Bureau

To learn more about factors to consider when
applying for or using a credit card, visit the
website of the Consumer Financial Protection
Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
Transaction Fees

$0–$49

Cash Advance

The greater of $10 or 3% of transaction amount

Foreign Transaction

None

Penalty Fees
• Late Payment

Up to $35.00

• Returned Payment

Up to $35.00

1

How We Calculate Your Balance. We use a method called “average daily balance (including new transactions).” For additional
information, see the “Interest Charges” section of the Agreement.
Billing Rights. Information on your rights to dispute transactions and how to exercise those rights is provided in the “Your Billing
Rights” section of this Agreement.
Prime Rate. Variable APRs are based on the Prime Rate. The APR for Purchases and Cash Advances may vary and will be
determined by adding 21.65% - 26.65% to the highest U.S. Prime Rate appearing in the “Money Rates” section of any edition of
The Wall Street Journal published on the 25th day of each month If publication is not made on that day, then the Prime Rate on
the next business day will be used. If the Prime Rate changes, the new rate will take effect beginning with billing cycles that end
on or after the first day of the month after the month in which the Prime Rate changed. The new rate will be applied to all
balances on the Account. The APR for all balances is 21.65% - 26.65% plus 3.25% as of 11/01/2020 currently
24.90% - 29.90% (corresponding daily periodic rate from 0.06822% to 0.08192%). The APR may increase or decrease each
month if the Prime Rate changes. If the APR increases, you will pay a higher interest charge and may pay a higher minimum
payment. The Prime Rate is simply an index and is not the lowest interest rate available.
ARBITRATION
Unless you are a Military Lending Act Covered Borrower (as defined in Section 40), the WebBank Oportun
Visa Credit Card Cardholder Agreement contains an Arbitration Provision. The Arbitration Provision is
contained in Section 41. Please read the Arbitration Provision carefully. Unless you send us the rejection
notice described in the Arbitration Provision, the Arbitration Provision will apply to you.
Important Information About Credit Reporting
We may report information about your Account to credit
bureaus. Late payments, missed payments, or other defaults
on your Account may be reflected in your credit report.

interest of your marriage and your family. If the credit card
for which you are applying is granted, you will notify the
Bank if you have a spouse who needs to receive notification that
credit has been extended to you.

State Specific Information
NOTICE FOR CALIFORNIA RESIDENTS: Applicants
may, after credit approval, use the credit card account up to
its credit limit and be liable for amounts extended under the
plan to any joint applicant. If you are married, you may
apply for credit in your own name.

All credit is granted and accounts are owned by WebBank,
Member FDIC.
WebBank
Oportun Visa Credit Card Cardholder Agreement

NOTICE FOR NEW YORK AND VERMONT
RESIDENTS: WebBank may obtain at any time your credit
reports, for any legitimate purpose associated with the account
or the application or request for an account, including but not
limited to reviewing, modifying, renewing and collecting on
your account. On your request, you will be informed if such a
report was ordered. If so, you will be given the name and
address of the consumer reporting agency furnishing the report.
NOTICE FOR NEW YORK RESIDENTS: New York
residents may contact the New York State Department of
Financial Services by telephone or visit its website for free
information on comparative credit card rates, fees and grace
periods. New York State Department of Financial Services:
1-877-226-5697 or http://www.dfs.ny.gov.
NOTICE FOR OHIO RESIDENTS: Ohio antidiscrimination laws require creditors to make credit equally
available to all creditworthy customers and that credit reporting
agencies maintain separate credit histories on individuals upon
request. The Ohio Civil Rights Commission administers these
laws.
NOTICE FOR MARRIED WISCONSIN RESIDENTS:
No provision of any marital agreement, unilateral statement,
or court order applying to marital property will adversely
affect a creditor’s interests unless prior to the time credit is
granted, the creditor is furnished with a copy of the
agreement, statement or court order, or has actual
knowledge of the provision. If you are married, by
submitting your credit card application you are confirming
that this credit card obligation is being incurred in the

Section 1. Credit Card Cardholder Agreement.
This WebBank Oportun Visa Credit Card Cardholder Agreement
(“Agreement”) is between you and WebBank, a Utah-chartered,
FDIC insured bank having its principal office in Salt Lake City, UT,
and governs your credit card account (“Account”). There are two
parts to this Agreement: WebBank Oportun Visa Credit Card
Account Important Disclosure and Pricing Information and the
WebBank Oportun Cardholder Agreement. WebBank will open an
Account and issue a Card(s) that may be used on the VISA®
network for transactions for Purchases and Cash Advances at
merchants, financial institutions, and automatic teller machines
accepting the Card. By using your Card, you agree to the terms of
the Agreement with WebBank including any changes, amendments
or supplements to it.
Section 2. Definitions.
The meanings of the capitalized terms used in the Agreement
appear in the “Glossary” (Section 39 of this Agreement).
As used here, “you” and “your” mean each applicant and co-applicant
approved on the Account; any person responsible for paying the
Account; any Authorized User; and any person responsible for
complying with this Agreement. “We,” “us,” “our,” and
“WebBank” mean WebBank.
Section 3. Account Documents.
The following documents govern your Account with us:
1. this Agreement;
2. all Statements;
3. any Privacy Notices;
4. all disclosures and materials provided to you before or when
you opened your Account;
5. any other documents and disclosures relating to your
Account; and

2

6. any future changes we make to any of the above.
Please read all of these carefully and keep them for future
reference.
Section 4. Account Information.
We need information about you to approve and manage your
Account. This includes the information requested on your
application. You agree to tell us when this information
changes and respond to our requests for information or
additional documents to verify any information. We may
restrict or close your Account if we cannot verify your
information, or if you do not provide it as requested.
Section 5. Use and Sharing of Information About You.
When you applied for an Account, you gave us, Oportun Inc
(“Oportun”) and our/their affiliates information about
yourself that we could share with each other. Oportun and
its affiliates will use the information in connection with the
credit program and for things like creating and updating its
records and offering you special benefits, and other products
and services. More information about how we use and share
information is set forth in the Privacy Notices for your
Account.
Section 6. Credit Limits.
When you open your Account, we will tell you your credit
limit. This will also appear on your Statement. We may also
refer to your credit limit as your credit line.
You are responsible for keeping track of your balance and
your available credit. You must manage your Account to
remain below your credit limit. We may honor transactions
above your credit limit, but if we do these transactions will
not increase your credit limit. You are responsible for paying
for any transaction you make above your credit limit upon
demand by us.
We may also increase, decrease, restrict or cancel your credit
limit at any time in accordance with applicable law. This
will not affect your obligation to pay us for any balance and
other amounts due under this Agreement.
Section 7. Using Your Account.
1. This Agreement applies, whether or not you use your
Card or Account. It will continue to apply even after your
Account is closed, as long as you have a balance.
2. Your use of the Card constitutes your acceptance of this
Agreement.
3. You must sign the Card immediately when you receive it.
4. You must return the Card to us or destroy it if we ask you
to.
5. You must take reasonable steps to prevent the
unauthorized use of your Card and Account.
6. We may decline to authorize a transaction for any reason.
This may occur even if the transaction would not cause you
to go over your credit limit or your Account is not in default.
7. We are not responsible for any losses you incur if we do
not authorize a transaction.
8. We are not responsible for any losses you incur if anyone
refuses to accept your Card for any reason.
9. You must not use, or try to use, the Card for any illegal
activity. You are responsible for any charges if you do.
10. We are not liable for any losses that may result when our
services are unavailable due to reasons beyond our control.
Section 8. Account Transactions.
You and any Authorized User, if allowed, may use your
Account and Cards to make Purchases of goods or services

at merchants where the Card is accepted and to obtain Cash
Advances at participating financial institutions. Each
Purchase and Cash Advance will reduce the available credit
under your credit limit until it is repaid. The total cash advance
balance is limited to the greater of 30% of your credit limit or
$150. Cash Advances cannot exceed 1 transaction per day, as
applicable. You promise to pay us when due the total amount of
all Purchases and Cash Advances as well as all interest and Fees
and other charges billed to your Account.
Section 9. Foreign Transactions.
If you make a transaction that settles in a currency other than US
dollars, the Card Association (Visa® ) will convert that charge
into a US dollar amount. That conversion will be done at a rate
selected by the card association from the range of rates available
in wholesale currency markets for the applicable processing date,
which rate may vary from the rate the card association itself
receives or the government mandated rate in effect for the
applicable processing date. The currency conversion rate used
on the processing date may differ from the rate that would have
been used on the transaction date or the date the transaction is
posted to your Account. You agree to pay the converted amount
at the rate selected by the card association, including any charges
for the conversion that may be imposed for the foreign
transaction.
Section 10. Security Interest.
This is an unsecured account and WebBank retains no security
interest in your real or personal property to secure payment of
your Account.
Section 11. Joint Accounts.
If this is a joint account, each of you is responsible individually
and together for all amounts owed. Each of you is responsible
even if the Account is used by only one of you. You will continue
to be liable for the entire balance of the Account, even if your
joint accountholder is ordered by a court to pay us. Your Account
status will be reported to the credit bureau under each of your
names. We will send a Statement to a single name and address,
which is the primary accountholder. The delivery of notices or
Statements to either of you serves as delivery to each of you. We
may rely on instructions given by either of you. We are not liable
to either of you for relying upon such instructions. Either joint
accountholder can access complete account information and can
request and accept credit line increase on the Account.
Section 12. Authorized Users (if allowed).
If you ask us to issue a Card to any person other than a joint
account holder and we agree to do so, they are an Authorized
User. We may require certain information about them and you
should let them know that you are sharing their information with
us. We may limit their ability to use your Card. They may have
access to certain information about your Account. You will be
responsible for their use of the Account and anyone else they
allow to use your Account, even if you did not want, or agree to,
that use. We may report information about your Authorized
User(s) to consumer reporting agencies. See the “Credit Reports”
section of this Agreement.
Section 13. Removing an Authorized User.
If you want to remove an Authorized User from your Account,
you must contact Customer Service at 833-Oportun and request
their removal. You also must immediately destroy all Cards in
their possession and cancel any arrangements they may have set
up on your Account. They will be able to use your Account until
you have notified us that you are removing them from your
Account. During this time, you will still be responsible for all
amounts they charge to your Account. You will be responsible

3

even if these amounts do not appear on your Account until
later.
Section 14. Your Promise to Pay.
You promise to pay us all amounts due on your Account.
This includes amounts where you did not sign a Purchase
slip or other documents for the transaction. We will treat
transactions made without presenting your Card (such as for
mail, telephone, Internet, or mobile device Purchases) the
same as if you used the Card in person. If you let someone
else use your Card or Account, you are responsible for all
transactions that person makes.
Section 15. Statements.
We will send or make available to you one Statement for
your Account at the end of each Billing Cycle. Your
Statement will tell you the payment due date when payments
are due. You must notify us at Oportun credit card, P.O. Box
560698, The Colony, TX 75056 of a change in your address.
Under certain circumstances, the law may not require us to
send or make available to you a Statement or may prohibit
us from doing so. In such circumstances, we may continue
to add interest and fees as permitted by law. If you elect to
receive your Statement electronically, paper statements will
not be mailed to you.
Section 16. Disputed Transactions.
You should inspect each Statement you receive and tell us
about any errors or questions you have, as described in the
“Billing Rights Summary” on your Statement and in this
Agreement.
If we credit your Account for all or part of a disputed
transaction, you give us all of your rights against others
regarding that transaction. You will also:
1. give us any information about the disputed transaction, if
we ask;
2. not pursue (or cease your current pursuit of) any claim or
reimbursement of the transaction amount from the merchant
or any other person; and
3. help us get reimbursement from others.
Section 17. No Warranties.
We are not responsible for any claim you may have
regarding the Purchase of goods or services made with your
Card beyond your rights described in the “Billing Rights
Summary” on your Statement and in this Agreement.
Section 18. Lost or Stolen Card.
If your Card is lost or stolen or if you think someone else
may be using your Card or Account without your
permission, you must contact us at 833-Oportun
immediately. You will not be responsible for transactions on
your Account that we find are unauthorized.
If we reimburse you for unauthorized transactions, you will
help us investigate, pursue and get reimbursement from the
wrongdoer. Your help includes giving us documents in a
form that we request.
Section 19. Interest Charges.
We use a method called Average Daily Balance (including
new transactions) to calculate the Interest Charges
separately for each transaction type on your account.
1. First, for each day in the Billing Cycle, we start with the
previous balance for Purchases and Cash Advances, add any
new charges not subject to a grace period, which may

include Fees and Interest, and subtract any payments and credits
as described in the “How We Apply Your Payments” Section of
this Agreement. The result is the daily
balance.
2. Next, we add the daily balances together and divide the sum
by the number of days in the Billing Cycle. The result is the
Average Daily Balance.
3. At the end of each Billing Cycle, we multiply your Average
Daily Balance by the daily periodic rate, and then we multiply
the result by the number of days in the Billing Cycle.
4. The result is your total Interest Charge for the Billing Cycle,
which you authorize us to round to the nearest cent.
For purposes of the above calculations, Interest Charges are
added (posted) to the daily balance of each Credit Plan on the last
day of the Billing Cycle. Fees are added as part of the daily
balance on the day they are posted to the Account. New
Purchases become part of the Account balance on the transaction
date. Due to rounding or a minimum Interest Charge, this
calculation may vary slightly from the Interest Charge actually
assessed.
The daily periodic rate that is used to determine your Interest
Charges is 1/365th of your Annual Percentage Rate (APR).
We will charge the Interest Charges and Fees to your Account as
disclosed in your Important Disclosure and Pricing Information
chart and your Statement. If you paid your balance in full by the
due date on your prior Statement, then we will not charge you
any new Interest Charges on new Purchases made during the
current Billing Cycle.
We may increase your Interest Charges and Fees as described in
the “Changes to Your Agreement” section of this Agreement.
If we charge you interest, the charge will be no less than $1.00.
Section 20. Transaction Fees.
Cash Advances. We may charge you a Cash Advance
Transaction Fee on any Cash Advance in an amount the greater
of $10 or three percent (3%) of the transaction amount.
Section 21. Late Payment and Returned Payment Fee.
(a). Late Payment Fee. If we do not receive payment from you in
at least the amount of your total Minimum Payment by the due
date shown on your monthly Statement, you will be charged a
Late Payment Fee. The fee will be $25.00 if you did not incur a
Late Payment Fee during any of the prior six billing periods;
otherwise the Late Payment Fee will be $35.00. However, this
fee will not exceed the amount permitted by law.
(b). Returned Payment Fee. If any check or other payment
tendered in payment on your Account is returned unpaid for any
reason, you will be charged a Returned Payment Fee. The fee
will be $25.00 if you did not incur a Returned Payment Fee
during any of the prior six billing periods; otherwise, the
Returned Payment Fee will be $35.00. However, this fee will
not exceed the amount permitted by law.
Section 22. Annual Fee.
The Annual Fee for your Account is up to $49. The Annual Fee
will be billed to your Account as long as it remains open.
Section 23. Minimum Payment.
You must pay at least the total Minimum Payment due by the
payment due date each month.
Your total Minimum Payment due will be the greater of (i) $25,
or (ii) 5% of the total of the new balance on your Statement, plus
late fees plus any past due amount, rounded to the next highest
dollar. However, if your total outstanding balance is less than
$25 your total Minimum Payment due will be the entire balance.

4

Your Statement will tell you:
1. the total Minimum Payment due,
2. your new balance,
3. the payment due date, and
4. an explanation of when the payment must reach us for us
to consider it received as of that date.
Returns and other credits to your Account will reduce your
Account balance, but they will not change your Minimum
Payment amount.
If your Account is 180 days past due, is part of a bankruptcy
proceeding, or is otherwise charged off, the total balance is
immediately due and payable.
Section 24. Making Payments.
Your payment must be made in U.S. dollars from a U.S.
deposit account in a form and a location acceptable to us.
You may not make payments with funds from your Account
or any other credit account with us. You must send mailed
payments to us as instructed on your Statement, unless we
tell you otherwise.
You must mail all payment items (such as checks)
(“Item(s)”) bearing restrictive words, conditions,
limitations, or special instructions to: Oportun credit card,
P.O. Box 561240, The Colony, TX 75056. This includes
Items marked “Paid in Full” or similar language. This also
includes all accompanying communications. If you make
such a payment or send any accompanying communications
to any other address, we may reject it and/or return it to you.
We may also accept it and process it without losing any of
our rights.
Section 25. Other Payment Services.
We may make services available that allow you to make inperson payments and faster or recurring payments online or
by telephone. We will describe the terms for using these
services and any applicable Fee before you use them. You
do not have to use these other payment services.
We are not responsible if your financial institution rejects a
payment made using our payment services.
If you ask someone else to make a payment for you, we may
provide that person with limited Account information
necessary to set up and process that payment. We may also
refuse to accept that payment. If we do accept it, you will be
responsible for that payment even if a financial institution
rejects it.
Section 26. Payment Processing.
We may accept and process payments without losing any of
our rights. Although we immediately credit your loan
payment to the balance of your Account, we may hold your
available credit until we confirm your payment cleared. We
may hold your available credit for up to 7 calendar days. We
may resubmit and collect returned payments electronically.
If necessary, we may adjust your Account to correct errors,
process returned and reversed payments, and handle similar
issues.
When you send us an Item as payment, you authorize us to
make a one-time electronic funds transfer from your deposit
account. We may withdraw the funds from your deposit
account as early as the same day we receive your payment.
You will not receive your Item back from your bank. We
will provide additional information about this process on
your Statement.
We may use the information from an Item to create an
electronic image. We may collect and return the image
electronically. This electronic image may also be converted

to a substitute check and may be processed in the same way
we would process an Item. We are not responsible if an Item
you provide has physical features that, when imaged, result
in it not being processed as you intended.
Section 27. How We Apply Your Payments.
In each Billing Cycle, we apply payments up to your Minimum
Payment to balances on your Account using any method we
choose (in accordance with applicable laws and regulations).
Payments up to your Minimum Payment will be applied in any
order at our discretion, and payments in excess of the Minimum
Payment will be applied to balances with the highest APR first
and then to lower rate balances in descending order of APR. This
means that balances with higher APRs are reduced before
balances with lower APRs for any amount of your payment that
is in excess of your Minimum Payment due.
Section 28. Credit Balances.
We may reject and return any payment that creates or adds to a
credit balance on your Account. Any credit balance we allow will
not be available until we confirm that your payment has cleared.
We may reduce the amount of any credit balance by any new
charges. We will make a good faith effort to refund any credit
balance remaining in the account for more than six months; or,
you may write to the address provided on your Statement or call
us at 833-Oportun to request a refund of any available credit
balance and we will issue a refund within thirty business days.
Section 29. Account Default.
You will be in default if:
1. you do not make any payment when it is due;
2. any payment you make is rejected, not paid or cannot be
processed;
3. you file or become the subject of a bankruptcy
or insolvency proceeding;
4. you are unable or unwilling to repay your obligations;
5. you move outside of the U.S.;
6. we determine that you made a false, incomplete or misleading
statement to us, or you otherwise tried to defraud us; or
7. you do not comply with any term of this Agreement or any
other agreement with us.
If you are in default, we may take certain actions with respect to
your Account. For example, depending on the default, we may
take the following actions, without notifying you, unless the law
says that we must give you notice:
1. charge you Fees, as permitted under the Agreement;
2. suspend your credit limit or the ability to make further
transactions on your Account;
3. close your Account;
4. lower your credit limit(s);
5. demand that you immediately pay the total balance owing on
your Account;
6. engage in efforts to collect your Account;
7. continue to charge you Interest Charges and Fees as long as
your balance remains outstanding; and/or
8. file a lawsuit against you, or pursue another action that is not
prohibited by law. If we file a lawsuit, you agree to pay our court
costs, expenses and attorney fees, unless the law does not allow
us to collect these amounts.
Section 30. Communications.
You agree that we (including any companies working on our
behalf to service your Account) may contact you at any phone
number, email address or mailing address you provide to us,

5

including mobile devices. You agree that from time to time
we (including any companies working on our behalf to
service your
Account) may monitor and record telephone calls made or
received by us or our agents regarding your Account to
assure
the quality of our service. In order for us to service the
Account or to collect any amounts you may owe, and subject
to applicable law, you agree that we (including any
companies working on our behalf to service your Account)
may from time to time make calls and send text messages to
you using prerecorded/artificial voice messages or through
the use of an automatic dialing device at any telephone
number you provide to us in connection with your Account
at any time, including a mobile telephone number that could
result in charges to you. Notify us immediately of any
changes to your contact information by calling 833Oportun.
Section 31. Credit Reports.
We may report information about your Account, including
about you and any Authorized Users, to credit bureaus and
others. Late payments, missed payments, or other defaults
on your Account may be reflected in your credit report.
Information we provide may appear on your credit report.
If you believe that we have reported inaccurate information
about your Account to a credit bureau or other consumer
reporting agency, notify us in writing at Oportun credit card,
P.O. Box 560698, The Colony, TX 75056 When you write,
tell us the specific information that you believe is incorrect
and why you believe it is incorrect. We will research the
issue and let you know if we agree or disagree with you. If
we agree, we will contact each consumer reporting agency
we reported to and request a correction.
We may obtain and use credit, income and other information
about you from credit bureaus and others as the law allows.
Section 32. Closing or Suspending Your Account.
You may contact us at 833-Oportun to ask us to close your
Account.
We may close or suspend your Account at any time and for
any reason permitted by law, even if you are not in default.
For example, we may close your Account if you have
received your card and have not activated or used it within
60 days.
If your Account is closed or suspended by either you or us
for any reason, you must stop using your Card. If we close
or permanently suspend your Account, you must return or
destroy all Cards. You must still pay us all amounts you owe
on the Account, including any amounts that post to your
Account after it is closed or suspended.
Section 33. Changes to Your Agreement.
At any time, we may add, delete or change any term of this
Agreement, unless the law prohibits us from doing so. We
will give you notice of any changes as required by law. We
may notify you of changes on your Statement or in a
separate notice. Our notice will tell you when and how the
changes will take effect. Use of the Card after the date the
notice takes effect shall signify your agreement to the
changes. The notice will describe any rights you have in
connection with the changes. If we increase your APR for
any reason, or if we change your Fees or other terms of your
Account, we will notify you as required by law. You may

not change this Agreement unless we agree to your change in
writing.
Section 34. The Law that Applies to Your Agreement.
This Agreement and your Account will be governed by federal
law applicable to a FDIC-insured institution located
in Utah and, to the extent not preempted by federal law, the law
of the state of Utah, without regard to its choice of law
provisions. You agree that this Agreement is entered into
between you and us, and received by us, in Utah and we extend
credit to you from Utah, whether or not you live in Utah. We will
make the decision whether to open an account for you based on
criteria established in Utah.
Section 35. Severability.
If any provision of this Agreement is determined to be void or
unenforceable under any applicable law, rule or regulation, all
other provisions of this Agreement will remain enforceable
(except as specifically addressed in the Arbitration provision).
This Agreement is a final expression of the agreement between
you and us.
Section 36. Waiver.
We will not lose any of our rights if we delay or choose not to
take any action for any reason. We may waive our right without
notifying you. For example, we may waive your Interest Charges
or Fees without notifying you and without losing our right to
charge them in the future.
Section 37. Assignment.
This Agreement will be binding on, and benefit, any of your and
our successors and assigns. You may not sell, assign or transfer
your Account or this Agreement to someone else without our
written permission. We may sell, assign or transfer your Account
and this Agreement including the receivables associated
therewith and any of the rights and benefits of this Agreement
without your permission and without prior notice to you. Any
assignee or assignees will take our place under this Agreement.
You must pay them and perform all of your obligations to them
and not us. If you pay us after we notify you that we have
transferred your Account, the receivables thereunder or this
Agreement, we can return the payment to you, forward the
payment to the assignee, or handle it in another way that is
reasonable.
We may also engage agents, authorized representatives, and
other service providers, all of which may act for us under this
Agreement and rely on the rights given to us under this
Agreement.
Section 38. Spanish Translations.
We provide Spanish translations, certified by a third-party
translator, as a courtesy to our Spanish-speaking customers.
When provided with an English document of the same content,
the English provisions are always the legally binding provisions.
If the Spanish translations differ from the English provisions, the
English provisions control.
Section 39. Glossary.
“Account” means your Oportun Visa Credit Card Account with
WebBank.
“Annual Fee” means the fee charged on an annual basis for use
of your Account.
“Annual Percentage Rate” or “APR” means your cost of credit
expressed as a yearly rate.
“Billing Cycle” means the period of time reflected on a
Statement. This period may vary in length but is

6

approximately 30 days. You will have a Billing Cycle even
if a Statement is not required. We will often specify a
Billing Cycle by the month in which its closing date occurs.
For example, a “March Billing
Cycle” will have a closing date in March. We may also refer
to a Billing Cycle as a “Billing Period.” If your Account
balance has
charged off, we may switch to quarterly Billing Cycles for
your Account.
“Card” means any WebBank credit card associated with
your Account. This includes all renewals and substitutions.
It also means any other access device for your Account we
give you that allows you to obtain credit, including any
Account number.
“Cash Advance” means a transaction using your Card to
obtain cash from financial institutions or automatic teller
machines that honor the Card or if we provide you with
Cash Advance checks. Also treated as Cash Advances are
purchasing travelers checks, foreign currency, money
orders, wire transfers or similar cash like transactions as we
determine including purchasing lottery tickets or similar
betting transactions and making a payment using a third
party service.
“Fees” mean charges imposed on your Account not based
on the Annual Percentage Rates.
“Interest Charges” mean any charges to your Account
based on the application of an Annual Percentage Rate.
“Item” means a check, draft, money order or other
negotiable instrument you use to pay your Account. This
includes any image of these instruments.
“Minimum Payment” is the amount that must be paid by the
payment due date indicated on your Statement.
“Purchase” means a transaction using your Card to purchase
or receive goods or services from one who honors the Card.
“Statement” means a document showing important Account
information, including all transactions billed to your
Account during a Billing Cycle and information about what
you must pay. We may also refer to your Statement as a
“Periodic Statement” or a “Billing Statement.”
Section 40. Military Lending Act Disclosure.
The federal Military Lending Act (“MLA”) provides
important protections for certain members of the Armed
Forces and their dependents (“Covered Borrowers”) relating
to extensions of consumer credit. The following provisions
of this Section 40 apply only to Covered Borrowers.
Federal law provides important protections to members of
the Armed Forces and their dependents relating to
extensions of consumer credit. In general, the cost of
consumer credit to a member of the Armed Forces and his
or her dependent may not exceed an annual percentage rate
of 36 percent. This rate must include, as applicable to the
credit transaction or account: The costs associated with
credit insurance premiums; fees for ancillary products sold
in connection with the credit transaction; any application fee
charged (other than certain application fees for specified
credit transactions or accounts); and any participation fee
charged (other than certain participation fees for a credit
card account).

In order to hear important disclosures and payment information
about the account of a Covered Borrower, you may call 1-855613-0070.
The Arbitration Provision set forth in Section 41 of this
Agreement does not apply if you are a Covered Borrower.
Section 41. Arbitration.
RESOLUTION OF DISPUTES: THIS ARBITRATION
PROVISION LIMITS YOUR RIGHTS IN THE EVENT OF A
DISPUTE BETWEEN YOU AND US AND OTHERS UNLESS
YOU ARE AN MLA COVERED BORROWER. YOU HAVE
THE RIGHT TO REJECT THIS PROVISION AS PROVIDED
IN PARAGRAPH (b) BELOW.
a. Either you or we may, at your or our sole election, require that
the sole and exclusive forum and remedy for resolution of a
Claim be final and binding arbitration pursuant to this section
(the “Arbitration Provision”), unless you opt out as provided in
section (b) below. Oportun (including its affiliates and dealers),
or any subsequent holder of this Agreement or any interest in
your Account or any subsequent Purchaser, holder or assignee of
any receivables arising under your Account (collectively,
“subsequent holder”), may also elect arbitration of any Claim as
provided in this Arbitration Provision. As used in this Arbitration
Provision, “Claim” shall include any past, present, or future
claim, dispute, or controversy involving you (or persons
claiming through or connected with you), on the one hand, and
us and/or Oportun and/or any subsequent holder (or persons
claiming through or connected with us and/or Oportun and/or the
subsequent holders), on the other hand, relating to or arising out
of your application for and origination of this Account, this
Agreement, your Account, or the relationship between you and
us, including (except to the extent provided otherwise in the last
sentence of section (f) below) the validity or enforceability of
this Arbitration Provision, any part thereof, or the entire
Agreement. Claims are subject to arbitration regardless of
whether they arise from contract; tort (intentional or otherwise);
a constitution, statute, common law, or principles of equity; or
otherwise. Claims include matters arising as initial claims,
counter-claims, cross-claims, third-party claims, or otherwise.
The scope of this Arbitration Provision is to be given the broadest
possible interpretation that is enforceable.
b. You may opt out of this Arbitration Provision for all purposes
by sending an arbitration opt out notice to Oportun credit card,
P.O. Box 560698, The Colony, TX 75056, which is received at
the specified address within 30 days of the date that you applied
for an Account. The opt out notice must clearly state that you are
rejecting arbitration; identify the Account to which it applies by
date; provide your name, address, and social security number;
and be signed by you. You may send an opt out notice in any
manner you see fit as long as it is received at the specified address
within the specified time. No other methods can be used to opt
out of this Arbitration Provision. If the opt out notice is sent on
your behalf by a third party, such third party must include
evidence of his or her authority to submit the opt out notice on
your behalf.
c. The party initiating arbitration shall do so with the American
Arbitration Association (the “AAA”) or Judicial Alternatives and
Mediation Services (“JAMS”). The arbitration shall be
conducted according to, and the location of the arbitration shall
be determined by and in accordance with, the rules and policies
of the administrator selected, except to the extent the rules
conflict with this Arbitration Provision or any applicable law. If
you have any questions concerning the AAA or would like to
obtain a copy of the AAA arbitration rules, you may call 1-800-

7

778-7879 or visit the AAA’s web site at: www.adr.org. If
you have any questions concerning JAMS or would like to
obtain a copy of the JAMS arbitration rules, you may call 1800-352-5267 or visit their web site at: www.jamsadr.com.
In the case of a conflict between the rules and policies of the
administrator and this Arbitration Provision, this Arbitration
Provision shall control, subject to applicable law, unless all
parties to the
arbitration consent to have the rules and policies of the
administrator apply. In the event that neither of the above
named administrators is available, the party requesting
arbitration may choose an alternative arbitrator or arbitration
provider.
d. If we (or Oportun or any subsequent holder) elect
arbitration, we (or Oportun or the subsequent holder, as the
case may be) shall pay all the administrator’s filing costs and
administrative fees (other than hearing fees). If you elect
arbitration, filing costs and administrative fees (other than
hearing fees) shall be paid in accordance with the rules of
the administrator selected, or in accordance with applicable
law if contrary to the administrator’s rules. We (or Oportun
or the subsequent holder, as the case may be) shall pay the
administrator’s hearing fees for one full day of arbitration
hearings. Fees for hearings that exceed one day will be paid
by the party requesting the hearing, unless the
administrator’s rules or applicable law require otherwise, or
you request that we (or Oportun or the subsequent holder)
pay them and we agree (or Oportun or the subsequent holder
agrees) to do so. Each party shall bear the expense of its own
attorneys’ fees, except as otherwise provided by applicable
law. If a statute gives you the right to recover any of these
fees, these statutory rights shall apply in the arbitration
notwithstanding anything to the contrary herein.
e. Within 30 days of a final award by the arbitrator, any party
may appeal the award for reconsideration by a threearbitrator panel selected according to the rules of the
arbitration administrator. In the event of such an appeal, any
opposing party may cross-appeal within 30 days after notice
of the appeal. The panel will reconsider de novo all aspects
of the initial award that are appealed. Costs and conduct of
any appeal shall be governed by this Arbitration Provision
and the administrator’s rules, in the same way as the initial
arbitration proceeding. Any award by the individual
arbitrator that is not subject to appeal, and any panel award
on appeal, shall be final and binding, except for any appeal
right under the Federal Arbitration Act (“FAA”), and may
be entered as a judgment in any court of competent
jurisdiction.
f. We (and Oportun and any subsequent holder) agree not
to invoke our right to arbitrate an individual Claim you may
bring in Small Claims Court or an equivalent court, if any,
so long as the Claim is pending only in that court. We (or
Oportun or any subsequent holder) will not initiate an
arbitration proceeding to collect a debt from you unless you
assert a Claim against us (or Oportun or any subsequent
holder). You may seek arbitration in a proceeding to collect
a debt. We (or Oportun or any subsequent holder) may seek
arbitration in a proceeding to collect a debt if you assert a
Claim against us (or Oportun or any subsequent holder). NO
ARBITRATION SHALL PROCEED ON A CLASS,
REPRESENTATIVE, OR COLLECTIVE BASIS
(INCLUDING AS PRIVATE ATTORNEY GENERAL
ON BEHALF OF OTHERS), EVEN IF THE CLAIM OR

CLAIMS THAT ARE THE SUBJECT OF THE
ARBITRATION HAD PREVIOUSLY BEEN ASSERTED (OR
COULD HAVE BEEN ASSERTED) IN A COURT AS CLASS,
REPRESENTATIVE, OR COLLECTIVE ACTIONS IN A
COURT. Unless consented to in writing by all parties to the
arbitration, no party to the arbitration may join, consolidate, or
otherwise bring claims for or on behalf of two or more
individuals or unrelated corporate entities in the same arbitration
unless those persons are parties to a single transaction. Unless
consented to in writing by all parties to the arbitration, an award
in arbitration shall determine the rights and obligations of the
named parties only, and only with respect to the claims in
arbitration, and shall not (a) determine the rights, obligations, or
interests of anyone other than a named party, or resolve any
Claim of anyone other than a named party; nor (b) make an award
for the benefit of, or against, anyone other than a named party.
No administrator or arbitrator shall have the power or authority
to waive, modify, or fail to enforce this section (f), and any
attempt to do so, whether by rule, policy, arbitration decision or
otherwise, shall be invalid and unenforceable. Any challenge to
the validity of this section (f) shall be determined exclusively by
a court and not by the administrator or any arbitrator.
g. This Arbitration Provision is made pursuant to a transaction
involving interstate commerce and shall be governed by and
enforceable under the FAA. The arbitrator will apply substantive
law consistent with the FAA and applicable statutes of
limitations. The arbitrator may award damages or other types of
relief permitted by applicable substantive law, subject to the
limitations set forth in this Arbitration Provision. The arbitrator
will not be bound by judicial rules of procedure and evidence that
would apply in a court. The arbitrator shall take steps to
reasonably protect confidential information.
h. This Arbitration Provision shall survive (i) suspension,
termination, revocation, closure, or amendments to this
Agreement and the relationship of the parties and/or Oportun or
a subsequent holder; (ii) the bankruptcy or insolvency of any
party or other person; and (iii) any transfer of the Account or this
Agreement, or any interest in, or receivables arising under, the
Account or this Agreement, to any other person or entity. If any
portion of this Arbitration Provision other than section (f) is
deemed invalid or unenforceable, the remaining portions of this
Arbitration Provision shall nevertheless remain valid and in
force. If an arbitration is brought on a class, representative,
or collective basis, and the limitations on such proceedings in
section (f) are finally adjudicated pursuant to the last sentence of
section (f) to be unenforceable, then no arbitration shall be had.
In no event shall any such invalidation be deemed to authorize
an arbitrator to determine Claims or make awards beyond those
authorized in this Arbitration Provision.
THE PARTIES ACKNOWLEDGE THAT THEY HAVE A
RIGHT TO LITIGATE CLAIMS THROUGH A COURT
BEFORE A JUDGE OR JURY, BUT WILL NOT HAVE THAT
RIGHT IF ANY PARTY ELECTS ARBITRATION
PURSUANT TO THIS ARBITRATION PROVISION.
SUBJECT TO SECTION (b), THE PARTIES HEREBY
KNOWINGLY AND VOLUNTARILY WAIVE THEIR
RIGHTS TO LITIGATE SUCH CLAIMS IN A COURT
BEFORE A JUDGE OR JURY UPON ELECTION OF
ARBITRATION BY ANY PARTY.
i. The arbitration proceedings will be conducted in English;
however, you may have the arbitration hearing translated in
Spanish or another language by a translator agreed to by you and
us. If you and we cannot agree to a translator, the arbitrator will
appoint one.

8

•
Your Billing Rights.
This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.
Your Billing Rights
Keep This Notice for Future Use: This notice tells you
about your rights and our responsibilities under the Fair
Credit Billing Act.
What To Do If You Find A Mistake On Your Statement:
If you think there is an error on your statement, write to us
as soon as possible at: Oportun credit card, P.O. Box
560698, The Colony, TX 75056.
In your letter, give us the following information:
•
Account information: Your name and account
number.
•
Dollar amount: The dollar amount of the suspected
error.
•
Description of problem: If you think there is an error
on your bill, describe what you believe is wrong and
why you believe it is a mistake.
You must contact us:
•
Within 60 days after the error appeared on your
statement.
•
At least 3 business days before an automated payment
is scheduled, if you want to stop payment on the
amount you think is wrong.
You must notify us of any potential errors in writing. You
may notify us at Oportun credit card, P.O. Box 560698, The
Colony, TX 75056, but if you do, we are not required to
investigate any potential errors and you may have to pay the
amount in question.
What Will Happen After We Receive Your Letter.
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you
that we received your letter. We will also tell you if we have
already corrected the error.
2. Within 90 days of our receipt of your letter, we will send
you a written notice explaining either that we corrected the
error (to appear on your next statement) or the reasons we
believe the bill is correct.
While we investigate whether or not there has been an error,
the following are true:
•
•

We cannot try to collect the amount in question, or
report you as delinquent on that amount.
The charge in question may remain on your
statement, and we may continue to charge you interest
on that amount.

While you do not have to pay the amount in question until we
send you a notice about the outcome of our
investigation, you are responsible for the remainder of your
balance.
•
We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will
happen:
•
•

If we made a mistake: You will not have to pay the amount
in question or any interest or other fees related to that
amount.
If we do not believe there was a mistake: You will have to
pay the amount in question, along with applicable interest
and fees. We will send you a statement of the amount you
owe, and the date payment is due. We may then report you
as delinquent if you do not pay the amount we think you
owe.

If you receive our explanation but still believe your bill is wrong,
you must write to us within 10 days telling us that you still refuse
to pay. If you do so, we cannot report you as delinquent without
also reporting that you are questioning your bill. We must tell
you the name of anyone to whom we reported you as delinquent,
and we must let those organizations know when the matter has
been settled between us.
If we do not follow all of the rules above, you do not have to pay
the first $50 of the amount you question even if your bill is
correct.
Your Rights If You Are Dissatisfied With Your
Credit Card Purchases.
If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good faith
to correct the problem with the merchant, you may have the right
not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or
within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither of
these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that
sold you the goods or services.);
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify; and
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied
with the purchase, contact us in writing at Oportun credit card,
P.O. Box 560698, The Colony, TX, 75056.
While we investigate, the same rules apply to the disputed
amount as discussed above. After we finish our investigation, we
will tell you our decision. At that point, if we think you owe an
amount and do not pay, we may report you as delinquent.

9

